.,~ ~
(t
't''J'1v 

    ;'lr~"Ja
 +'~4S"VICES."S.
                       DEPARTMENT
                       DEPARTMENTOF
                                  OF HEALTH
                                     HEALTH&.
                                            &. HUMAN
                                               HUMAN SERVICES
                                                     SERVICES                                                               Office of Inspector
                                                                                                                                      Inspector General


                                                                                                                            Washington, D.C.
                                                                                                                            Washington,
                                                                                                                                                General


                                                                                                                                        D.C. 20201

                                                                                                                                             20201




                                                                      DEC -- 88 2008

                                                                      DEC        2008 


                   TO:
                   TO: Kerry  Weems

                           Kerry Weems 

                                          Acting
                                          Acting Administrator
                                          Centers for Medicare & Medicaid Services


                       Lf?v~
                   FROM:
                     ~;;~~y
                   FROM:    Lf:~
             Inspector
                                   ~;;~ty Inspector     General
                                                    General  forforAudit
                                                                    AuditServices

                                                                          Services


                   SUBJECT:
                   SUBJECT: Review of 
   Review of Via
                                                    Via Chrsti
                                                        Christi Regional
                                                                Regional Medical
                                                                         Medical Center's
                                                                                  Center's Reported
                                                                                           Reported Fiscal
                                                                                                    Fiscal Year
                                                                                                           Year 2005
                                                                                                                2005

                                          Wage Data (A-07-07-02726)


                   Attached is an advance copy of our [mal                  final report on Via Christi     Regional Medical
                                                                                                 Chrsti Regional        Medical Center's
                                                                                                                                      Center's (the
                                                                                                                                                (the
                   Hospital) reported fiscal      fiscal year (FY)  (FY) 2005
                                                                            2005 wage
                                                                                  wage data.
                                                                                        data. We will
                                                                                                   wil issue
                                                                                                           issuethis
                                                                                                                 this report
                                                                                                                       report to to the
                                                                                                                                     the Hospital
                                                                                                                                         Hospital
                   within
                   within     5 business
                          5 business days. This days.     This
                                                review is one in a review
                                                                   series of is one in a series of reviews
                                                                                                   reviews of  of the
                                                                                                                  theaccuracy
                                                                                                                       accuracy
                                                                                                                              of 
    of hospitals'
                                                                                                                                         hospitals'
                   wage data, which the Centers for                 for Medicare & Medicaid Services
                                                                                                  Services (CMS) uses in developing developing its
                   wage indexes.

                   Under the inpatient
                              inpatient prospective payment system for acute-care
                                                                          acute-care hospitals,
                                                                                       hospitals, Medicare
                                                                                                   Medicare Part  A pays
                                                                                                              Par A pays
                   hospital costs at predetermined, diagnosis-related rates
                                                                        rates for
                                                                              for patient
                                                                                  patient discharges.
                                                                                           discharges. The payment
                   system base rate includes a labor-related share.   CMS adjusts
                                                               share. CMS   adjusts the
                                                                                     the labor-related
                                                                                          labor-related share by the wage
                                                                                                        share by
                   index applicable to the statistical area in which a hospital is located.

                   Our objective was to determine whether the Hospital complied with Medicare requirements for
                   reporting wage data in its FY 2005 Medicare cost report.

                   The Hospital did not fully comply with Medicare requirements for reporting wage data in its
                   FY 2005 Medicare cost report.                    Specifically, the
                                                          report. Specifically,    the Hospital
                                                                                        Hospital overstated
                                                                                                 overstated its
                                                                                                             its wage
                                                                                                                 wage data
                                                                                                                      data by
                                                                                                                           by $634,076
                                                                                                                               $634,076
                   and    understated
                   and understated           its bywage
                                   its wage data           dataOur
                                                    12,263 hours. bycorrection
                                                                      12,263of hours.
                                                                               
      Our correction ofthethe Hospital's
                                                                                                              Hospital's errors
                                                                                                                         errors decreased
                                                                                                                                decreased
                   the average hourly wage        wage raterate approximately 0.5  0.5 percent.
                                                                                       percent. The errors in reported wage data
                   occurred because the Hospital did not sufficiently review and reconcile wage data to supporting
                   documentation to ensure that the data were accurate, supportable, and in compliance with
                   Medicare requirements.

                   We recommend that the Hospital:

                         •. submit
                              submit a revisedFY
                                   a revised   FY2005
                                                  2005Medicare
                                                       Medicarecost
                                                                 costreport
                                                                      reporttotothe
                                                                                 thefiscal
                                                                                     fiscal intermediary
                                                                                             intermediaryto
                                                                                                          to correct
                                                                                                             correct the
                              wage data overstatement totaling $634,076 and understatement totaling 12,263 hours and
Page 2 – Kerry Weems


   •	 implement review and reconciliation procedures to ensure that the wage data reported in
      future Medicare cost reports are accurate, supportable, and in compliance with Medicare
      requirements.

In written comments on our draft report, the Hospital concurred with our first three findings and
did not concur with our last two findings. The Hospital submitted comments on, but neither
concurred nor nonconcurred with, the recommendations. However, the Hospital stated that its
policy and intent were to ensure proper statement of wage data reported in the Medicare cost
report. The Hospital also stated that it was undergoing a payroll system conversion during
FY 2005 and that it had to extrapolate payroll information for its FY 2005 cost report. The
Hospital added that it had completed the conversion and that, therefore, the issue was remedied
for subsequent cost reports.

Based on discussions with Hospital officials after the issuance of our draft report but before our
receipt of the Hospital’s written comments, we revised our finding on overstated contract labor
costs, the recommended adjustment amount, and the wage rate calculation. Our findings and
recommendations, as revised, are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through e-mail at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-07-02726.


Attachment
('~                    DEl'ARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                             Office
                                                                                                             Dlfice of
                                                                                                             Offces
                                                                                                                    of Inspec:or
                                                                                                             Offices of
                                                                                                                        Inspecmr General
                                                                                                                     ofAudit
                                                                                                                                  General
                                                                                                                         Audil Services
                                                                                                                               Services
('2
 ~,~ DEPARTMENT
     --~        OF HEALTH & HUMAN SERVICES

\<::1
 Yl'1)orljti~
                                                                                                             Regioii
                                                                                                             Region Vii
                                                                                                                     VII
                                                                                                             601 East
                                                                                                                 East 12th
                                                                                                                       12th Street
                                                                                                                            Street
                                                                                                             Room
                                                                                                             Room 284A
                                                                                                                   284A
                                                                                                             Kansas City.
                                                                                                                     City. Missouri
                                                                                                                           Missouri 64106
                                                                                                                                    64106
                                                                         2nr?
                                                               DEC 1111:?nr:?
                                                               DEC

            Report Number:
                   Number: A-07-07-02726
                           A-07-07-02726

            Mr. Michael Wegner
            Chief Financial
                  Financial Officer
                            Offcer
            Via Chrsti
            Via Christi Regional
                        Regional Medical
                                 Medical Center
                                         Center
                

            929 North St. Francis Street
            Wichita, Kansas
                     Kansas 67214
                             67214

            Dear Mr. Wegner:

            Enclosed is the U.S. Department of Health
            Enclosed is the U.S. Deparment of                        Health    andServices
                                                                          and Human Human  (HHS),Services
                                                                                                  Offce of
   (HHS), Office of Inspector
            General
            General (OIG),(OIG),      final
                           final report       report
                                        entitled "Review entitled
                                                         of 
        "Review of Via Chrsti Christi Regional
                                                                                                       Regional Medical
                                                                                                                   Medical Center's
                                                                                                                           Center's Reported
                                                                                                                                    Reported
            Fiscal     Year    2005      Wage      Data."      We
            Fiscal Year 2005 Wage Data." We will forward a copy of 
 will forward     a  copy    of   this  report to the HHS action official
            noted on the following page for               for review
                                                                review and
                                                                         and anyany action
                                                                                     action deemed
                                                                                               deemed necessary.

          The HHS action official will make               make finalfinal determination
                                                                            determination asas to
                                                                                               to actions
                                                                                                  actions taken
                                                                                                          taken on
                                                                                                                on all
                                                                                                                   all matters
                                                                                                                       matters reported.
          We
          We     request
             request that you that
                               respondyou   respond
                                       to this            to 30this
                                               offcial within    daysofficial    within
                                                                      from the date of                            this letter.
                                                                                        30 days from the date ofthis   letter. Your
        . response should present any comments or additional information that you believe may have a
          bearing on the final determination.

            Pursuant to the principles of the
            Pursuant to the principles of       Freedom
                                          the Freedom of 
                 Act,S5 U.S.C. §§ 552, as amended by
                                                            of Information Act,
            Public Law 104-231, OIG reports generally
                                                   generally are made available to the public to the extent the
                                       to exemptions
            information is not subject to  exemptions in   in the
                                                               the ACt
                                                                   Act(45
                                                                       (45CFR
                                                                          CFRpart
                                                                                par 5).
                                                                                    5). Accordingly,
                                                                                        Accordingly, this report
            will
            will be
                 be posted on the
                    posted on the Internet
                                  Internet at
                                            at http://oig.hhs.gov.
                                                 htt://oig.hhs.gov.
 



            If you have any questions or comments about this report, please do not hesitate to call me at
            (816)
            (816) 426-3591,  or contact
                  426-3591, or  contact James
                                        James Korn,
                                               Korn, Audit
                                                       Audit Manager,
                                                             Manager, at
                                                                      at (303)
                                                                         (303) 844-7153
                                                                               844-7153 or
                                                                                         or through
                                                                                             through e-mail
                                                                                                      e-mail at
                                                                                                             at
            James.Korn@oig.hhs.gov.     Pleaserefer
            James.Korn(foig.hhs.gov. Please    refertotoreport
                                                         reportnumber
                                                                numberA-07-07-02726
                                                                       A-07-07-02726 in
                                                                                      in all
                                                                                          all correspondence.
                                                                                               correspondence.



                                                                    smc~
                                                                      ~
                                                                    ~ .
                                                                           s.inc~.ei.y.,. ...... ...... .. ..
 





                                                                    ~
                                                                      .. .

                                                                           Patrck J.
                                                                           Patrick J. Cogley
                                                                           Regional Inspector General
                                                                             for Audit Services


            Enclosure
Page 2 – Mr. Michael Wegner


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF VIA CHRISTI 

 REGIONAL MEDICAL CENTER’S 

 REPORTED FISCAL YEAR 2005
 

        WAGE DATA 





                     Daniel R. Levinson
 

                      Inspector General 


                       December 2008
 

                       A-07-07-02726
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices


                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND


Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. The Centers for
Medicare & Medicaid Services (CMS) adjusts prospective payments by the wage index
applicable to the area in which each hospital is located. CMS calculates a wage index for each
metropolitan area, known as a core-based statistical area (CBSA), as well as a statewide rural
wage index for each State. These calculations use hospital wage data (which include wages,
salaries, and related hours) collected 4 years earlier to allow time for the collection of complete
cost report data from all inpatient prospective payment system hospitals and for reviews of
hospital wage data by CMS’s fiscal intermediaries. For example, CMS based the fiscal year
(FY) 2009 wage indexes on wage data collected from hospitals’ Medicare cost reports for their
FYs that began during Federal FY 2005 (October 1, 2004, through September 30, 2005).

CMS bases each wage index on the average hourly wage rate of the applicable hospitals divided
by the national average rate. A hospital’s wage rate is the quotient of dividing total dollars
(numerator) by total hours (denominator). Arriving at the final numerator and denominator in
this rate computation involves a series of calculations.

CMS is required to update wage indexes annually in a manner that ensures that aggregate
payments to hospitals are not affected by changes in the indexes. CMS is also required to update
payments to hospitals by an applicable percentage based on the market basket index, which
measures the inflationary increases in hospital costs. Hospitals must accurately report wage data
for CMS to determine the equitable distribution of payments and ensure the appropriate level of
funding to cover hospital costs.

Via Christi Regional Medical Center (the Hospital) is a 785-bed hospital in Wichita, Kansas.
The Hospital is 1 of 10 hospitals in a Kansas CBSA. The Hospital reported wage data of
approximately $198.9 million and 6.8 million hours in its FY 2005 Medicare cost report, which
resulted in an average hourly wage rate of $29.14.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2005 Medicare cost report.

SUMMARY OF FINDINGS

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2005 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:

   •   understated physician Part A wages totaling approximately $794,150 and 25,895 hours,
   •   overstated excluded-area hours totaling 21,785 with associated wages of $200,335,
   •   understated wage-related costs totaling $63,827,


                                                  i
   •	 overstated contract labor costs totaling $443,573 and 34,779 hours, and
   •	 misstated hours totaling 638 with associated wages of $1,248,815.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by
$634,076 (numerator) and understated its wage data by 12,263 hours (denominator) for the
FY 2005 Medicare cost report period. Our correction of the Hospital’s errors decreased the
average hourly wage rate approximately 0.5 percent from $29.14 to $29.

RECOMMENDATIONS

We recommend that the Hospital:

   •	 submit a revised FY 2005 Medicare cost report to the fiscal intermediary to correct the
      wage data overstatement totaling $634,076 and understatement totaling 12,263 hours and

   •	 implement review and reconciliation procedures to ensure that the wage data reported in
      future Medicare cost reports are accurate, supportable, and in compliance with Medicare
      requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with our first three findings and
did not concur with our last two findings. The Hospital submitted comments on, but neither
concurred nor nonconcurred with, the recommendations. However, the Hospital stated that its
policy and intent were to ensure proper statement of wage data reported in the Medicare cost
report. The Hospital also stated that it was undergoing a payroll system conversion during
FY 2005 and that it had to extrapolate payroll information for its FY 2005 cost report. The
Hospital added that it had completed the conversion and that, therefore, the issue was remedied
for subsequent cost reports.

Based on discussions with Hospital officials after the issuance of our draft report but before our
receipt of the Hospital’s written comments, we revised our finding on overstated contract labor
costs, the recommended adjustment amount, and the wage rate calculation. Our findings and
recommendations, as revised, are valid.

The Hospital’s comments appear in their entirety as Appendix B.




                                                 ii
                                                  TABLE OF CONTENTS


                                                                                                                              Page

INTRODUCTION ...............................................................................................................1


          BACKGROUND.......……………………………………………………………….1 

              Medicare Inpatient Prospective Payment System..........................................1 

              Wage Indexes.................................................................................................1 

              Via Christi Regional Medical Center……………………………………….2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2 

               Objective ........................................................................................................2

               Scope..............................................................................................................2 

               Methodology ..................................................................................................2 


FINDINGS AND RECOMMENDATIONS ......................................................................3 


          ERRORS IN REPORTED WAGE DATA ................................................................3 

              Understated Physician Part A Wages ............................................................3 

              Overstated Excluded-Area Hours ..................................................................4 

              Understated Wage-Related Costs ..................................................................4 

              Overstated Contract Labor Costs ...................................................................4 

              Misstated Wages and Hours Data ..................................................................5 


          CAUSES OF WAGE DATA REPORTING ERRORS .............................................5 


          MISSTATED WAGE DATA ....................................................................................6 


          RECOMMENDATIONS...........................................................................................6                   


          AUDITEE COMMENTS AND OFFICE OF
            INSPECTOR GENERAL RESPONSE ................................................................6 

               Overstated Contract Labor Costs ...................................................................6 

               Misstated Wages and Hours Data ..................................................................7 


APPENDIXES

          A – CUMULATIVE EFFECT OF FINDINGS

          B – AUDITEE COMMENTS




                                                                    iii
                                                  INTRODUCTION 


BACKGROUND

Medicare Inpatient Prospective Payment System

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. In fiscal year
(FY) 2008, the Centers for Medicare & Medicaid Services (CMS) expected Medicare Part A to
pay inpatient hospitals approximately $120.5 billion.

Wage Indexes

The geographic designation of hospitals influences their Medicare payments. Under the
inpatient prospective payment system, CMS adjusts payments through wage indexes to reflect
labor cost variations among localities. 1 CMS uses the Office of Management and Budget
(OMB) metropolitan area designations to identify labor markets and to calculate and assign wage
indexes to hospitals. In 2003, OMB revised its metropolitan statistical area definitions and
announced new core-based statistical areas (CBSA). CMS calculates a wage index for each
CBSA and a statewide rural wage index for each State for areas that lie outside CBSAs. The
wage index for each CBSA and statewide rural area is based on the average hourly wage rate of
the hospitals in those areas divided by the national average hourly wage rate. All hospitals
within a CBSA or within a statewide rural area receive the same labor payment adjustment.

To calculate wage indexes, CMS uses hospital wage data (which include wages, salaries, and
related hours) collected 4 years earlier to allow time for CMS to collect complete cost report data
from all inpatient prospective payment system hospitals and for CMS’s fiscal intermediaries to
review these data. For example, CMS based the wage indexes for FY 2009, which began
October 1, 2008, on wage data collected from hospitals’ Medicare cost reports for their FYs that
began during Federal FY 2005 (October 1, 2004, through September 30, 2005). A hospital’s
wage rate is the quotient of dividing total dollars (numerator) by total hours (denominator).
Arriving at the final numerator and denominator in this rate computation involves a series of
calculations. Inaccuracies in either the dollar amounts or hours reported can have varying effects
on the final rate computation.

Section 1886(d)(3)(E) of the Social Security Act (the Act) requires that CMS update wage
indexes annually in a manner that ensures that aggregate payments to hospitals are not affected
by changes in the indexes. Hospitals must accurately report wage data for CMS to determine the
equitable distribution of payments. Further, section 1886(d)(3)(A)(iv) of the Act requires CMS
to update labor and nonlabor average standardized amounts by an applicable percentage increase
specified in section 1886(b)(3)(B)(i). The percentage increase is based on the market basket
index, which measures inflationary increases in hospital costs. The inclusion of unallowable


1
 The inpatient prospective payment system wage index or a modified version also applies to other providers, such as
outpatient hospitals, long term care hospitals, inpatient rehabilitation facilities, inpatient psychiatric facilities, skilled
nursing facilities, home health agencies, and hospices.


                                                           1

costs in wage data could produce an inaccurate market basket index for updating prospective
payments to hospitals.

Via Christi Regional Medical Center

Via Christi Regional Medical Center (the Hospital) is a 785-bed hospital in Wichita, Kansas. 

The Hospital is 1 of 10 hospitals in a Kansas CBSA. The Hospital submitted to CMS its 

FY 2005 Medicare cost report covering the period October 1, 2004, through September 30, 2005. 


OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2005 Medicare cost report.

Scope

Our review covered the $198,853,831 in salaries and 6,823,500 in hours that the Hospital
reported to CMS on Worksheet S-3, part II, of its FY 2005 Medicare cost report, which resulted
in an average hourly wage rate of $29.14. We limited our review of the Hospital’s internal
controls to the procedures that the Hospital used to accumulate and report wage data for its cost
report.

We performed fieldwork at the Hospital in Wichita, Kansas, from June through August 2007.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance; 


   •    obtained an understanding of the Hospital’s procedures for reporting wage data; 


   •	 verified that wage data on the Hospital’s trial balance reconciled to its audited financial
      statements;

   •	 reconciled the total reported wages in the Hospital’s FY 2005 Medicare cost report to its
      trial balance;

   •	 reconciled the wage data from selected cost centers to detailed support, such as payroll
      registers or accounts payable invoices;

   •	 selected for testing wage data in the FY 2005 Medicare cost report from cost centers that
      accounted for at least 2 percent of the total Hospital wages;



                                              2

   •	 tested a sample of transactions from these cost centers and reconciled wage data to
      payroll records;

   •	 interviewed Hospital staff regarding the nature of services that employees and contracted
      labor provided to the Hospital; and

   •	 determined the effect of the reporting errors by recalculating, as shown in Appendix A,
      the Hospital’s average hourly wage rate using the CMS methodology for calculating the
      wage index, which includes an hourly overhead factor, in accordance with instructions
      published in the Federal Register.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2005 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:

   •    understated physician Part A wages totaling approximately $794,150 and 25,895 hours,
   •    overstated excluded-area hours totaling 21,785 with associated wages of $200,335,
   •    understated wage-related costs totaling $63,827, 

   •    overstated contract labor costs totaling $443,573 and 34,779 hours, and 

   •	   misstated hours totaling 638 with associated wages of $1,248,815.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by
$634,076 (numerator) and understated its wage data by 12,263 hours (denominator) for the
FY 2005 Medicare cost report period. Our correction of the Hospital’s errors decreased the
average hourly wage rate approximately 0.5 percent from $29.14 to $29.

ERRORS IN REPORTED WAGE DATA

The errors in reported wage data are discussed in detail below, and the cumulative effect of the
findings is presented in Appendix A.

Understated Physician Part A Wages

The “Medicare Provider Reimbursement Manual” (the Manual), part II, section 3605.2, requires
hospitals to ensure that the wage data reported on their Medicare cost reports are accurate.



                                              3

The Hospital reported physician Part A wages totaling $1,525,786 and 2,717 hours at an average
wage of $561.57 per hour. However, we determined that the actual physician Part A wages and
hours were $2,276,854 and 26,729 hours at an average wage of $85.18 per hour.

Part of this error was attributable to the Hospital’s incorrectly reclassifying an estimated
$2 million in wages and 20,000 hours from Part A to Part B in its Medicare cost report. Hospital
personnel said that they made the reclassification because the Part A totals appeared to be too
high. Hospital personnel also said that they had estimated, rather than calculated, the transferred
amounts and that they planned to obtain more accurate figures in the future. Further, the
personnel acknowledged that the transfer was not supportable and not in accordance with Federal
requirements.

As a result of these errors, after overhead was factored in, the Hospital understated physician
Part A wage data by $794,150 and 25,895 hours, which understated its average hourly wage rate
by $0.01.

Overstated Excluded-Area Hours

The Manual, part II, section 3605.2, requires hospitals to ensure that the wage data reported in
their Medicare cost reports are accurate. The Manual instructs hospitals to report the total (core
and other) wage-related costs applicable to excluded areas and the corresponding hours. 2

The Hospital incorrectly reported excluded-area hours because it did not reconcile its workpapers
to its Medicare cost report. As a result, the Hospital overstated its excluded-area hours by
21,785 and $200,335 in associated wages, which overstated its average hourly wage rate by
$0.06.

Understated Wage-Related Costs

The Manual, part II, section 3605.2, requires hospitals to ensure that the wage data reported in
their Medicare cost reports are accurate.

The Hospital overstated physician Part A wage-related costs by $875,261 and understated core
wage-related costs by $941,784 because it did not reconcile its workpapers to its Medicare cost
report. As a result, after overhead was factored in, the Hospital understated its wage-related
costs by $63,827, which understated its average hourly wage rate by $0.01.

Overstated Contract Labor Costs

The Manual, part II, section 3605.2, states that the amounts paid for services furnished under
contract are allowable if they are direct patient care services (i.e., nursing, diagnostic,
therapeutic, or rehabilitative services) or certain management services. The Manual limits

2
 Pursuant to the Manual, part II, section 3605.2, “core” wage-related costs are those reported on part I of Form
CMS-339. “Other” wage-related costs, which are reported on part II of Form CMS-339, must exceed 1 percent of a
hospital’s total salaries after direct excluded salaries are removed. The term “excluded areas” refers to wages and
hours not used in the wage rate calculation.


                                                       4

allowable contract management services to personnel costs for hospital executive officers and
nursing administrators. For direct patient care services and management services, the Manual
directs hospitals to eliminate all supplies, travel expenses, and other miscellaneous items.

The Hospital overstated its contract labor by $443,573 and 34,779 hours because it reported
expenses for excluded items 3 and reported duplicate amounts and hours already listed in the cost
report, which overstated its average hourly wage rate by $0.08.

Misstated Wages and Hours Data

The Manual, part II, section 3605.2, states that hospitals should ensure that the wage data
reported in their Medicare cost reports are accurate. Further, it states: “Paid hours include
regular hours (including paid lunch hours), overtime hours, paid holiday, vacation and sick leave
hours, paid time-off hours, and hours associated with severance pay . . . . If the hours cannot be
determined, then the associated salaries must not be included . . . .”

The Hospital did not correctly document and therefore did not correctly report the hours
associated with $1,248,815 of wages for two of its cost centers: the Severance/Settlement cost
center, which records the costs associated with severance payments, and the Employee Benefits
cost center, which records costs associated with paid time off, sick pay, and bonuses.
Specifically:

       •	 In the Medicare cost report, the Hospital’s Severance/Settlement cost center reported
          $230,211 in salaries and 77 hours for severance payments.

       •	 Excluding bonuses, 4 the Hospital’s Employee Benefits cost center reported $1,018,604 in
          salaries and 561 hours.

Hospital personnel acknowledged that they had incorrectly compiled the hours but stated that they
were not able to identify the correct number of hours. Because the Hospital could not determine
the correct number of hours, we removed the $1,248,815 in salaries and the 638 hours that were
reported in the cost report, which decreased the Hospital’s average hourly wage rate by $0.18.

CAUSES OF WAGE DATA REPORTING ERRORS

These reporting errors occurred because the Hospital did not have adequate procedures to ensure
that its reporting of wage data met Medicare requirements. Specifically, the Hospital did not
sufficiently review and reconcile wage data to supporting documentation to ensure that all
amounts included in its Medicare cost report were accurate, supportable, and in compliance with
Medicare requirements.



3
    The excluded items were lodging and transportation expenses.
4
    Under the provisions of the Manual, part II, section 3605.2, no hours are required to be reported for bonus pay.



                                                           5

MISSTATED WAGE DATA

As a result of the reporting errors, the Hospital overstated its Part A wage data by $634,076
(numerator) and understated its wage data by 12,263 hours (denominator) for the FY 2005
Medicare cost report period. Our correction of the Hospital’s errors decreased the average
hourly wage rate approximately 0.5 percent from $29.14 to $29.

RECOMMENDATIONS

We recommend that the Hospital:

   •	 submit a revised FY 2005 Medicare cost report to the fiscal intermediary to correct the
      wage data overstatement totaling $634,076 and understatement totaling 12,263 hours and

   •	 implement review and reconciliation procedures to ensure that the wage data reported in
      future Medicare cost reports are accurate, supportable, and in compliance with Medicare
      requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital concurred with our first three findings and
did not concur with our last two findings. The Hospital submitted comments on, but neither
concurred nor nonconcurred with, the recommendations. However, the Hospital stated that its
policy and intent were to ensure proper statement of wage data reported in the Medicare cost
report. The Hospital also stated that it was undergoing a payroll system conversion during
FY 2005 and that it had to extrapolate payroll information for its FY 2005 cost report. The
Hospital added that it had completed the conversion and that, therefore, the issue was remedied
for subsequent cost reports.

Nothing in the Hospital’s written comments caused us to revise our findings or
recommendations. However, based on discussions with Hospital officials after the issuance of
our draft report but before our receipt of the Hospital’s written comments, we revised our finding
on overstated contract labor costs, the recommended adjustment amount, and the wage rate
calculation. Our findings and recommendations, as revised, are valid.

For the two findings with which the Hospital did not concur, we have presented a summary of
the Hospital’s comments, as well as our responses, below. The Hospital’s comments appear in
their entirety as Appendix B.

Overstated Contract Labor Costs

Auditee Comments

The Hospital did not concur with “the classification of these labor costs as not being directly
related to patient care. [The Hospital] knows these services to be essential in the provision of
care directly related to patients.”


                                               6

Office of Inspector General Response

The overstated labor costs that we questioned pertained to lodging and transportation expenses,
which are excluded costs pursuant to the Manual, part II, section 3605.2.

Misstated Wages and Hours Data

Auditee Comments

The Hospital did not concur that hours associated with severance pay were misstated. The
Hospital stated that the majority of the wage amount in the adjustment was for severance pay and
that “[h]ours are not recorded when severance payments are made. The calculation of the
severance payments is based on hours but the payment is made subsequent to termination of
employment and inclusion of hours would inaccurately report paid hours for the reporting
period.”

Office of Inspector General Response

The Manual, part II, section 3605.2, states that paid hours include hours associated with
severance pay. If the hours cannot be determined, the associated salaries must not be included.
Consequently, we deducted the total salary amount and hours associated with severance pay
from the wage rate calculations. Although the Hospital stated that the majority of the wage
amount in the adjustment was for severance pay, we found that, in fact, the majority of the wage
amount in the adjustment was for the Employee Benefits cost center, as stated earlier in our
report.




                                              7

APPENDIXES

                                                                            CUMULATIVE EFFECT OF FINDINGS                                                                                           APPENDIX A
                                                                                                                                                                                                      Page 1 of 2


                                                                  Reported Fiscal Year                                                                                                               Adjusted FY 2005 Wage
Unadjusted Wages                                                  (FY) 2005 Wage Data                                                                                                                         Data

                                                                                                                                                           Excluded Area
                                                                                           Physician Part A      Contract Labor      Salaries & Hours                         Wage-Related Costs
Via Christi Regional Medical Center - FY 2009 Wage Index                                                                                                       Hours
Worksheet S - 3, Part II
Total Salaries
line1/col. 3             Total Salaries                                  $180,237,380.00                                                 ($1,247,748.00)                                                   $178,989,632.00

                        Excluded Salaries
line 3/col.3            Nonphysician Anesthetist Part B                            $0.00
Line 4.01/col. 3        Teaching Physician Salaries                                $0.00
line5/col. 3            Physician Part B                                   $7,592,839.00         ($751,068.00)                                                                                               $6,841,771.00
line6/col. 3            Interns and Residents                              $6,727,280.00                                                                                                                     $6,727,280.00
line 8/col. 3           Skilled Nursing Facility (SNF) Salaries
line8.01/col. 3         Excluded Area Salaries                             $8,057,947.00                                                                                                                     $8,057,947.00
subtotal (subtract)                                                       $22,378,066.00         ($751,068.00)              $0.00                $0.00              $0.00                   $0.00           $21,626,998.00


                        Additional Salaries

line9/col. 3            Contract Labor                                     $3,727,214.00                $0.00        ($443,573.07)                                  $0.00                   $0.00            $3,283,640.93
line 10/col. 3          Contract Labor-Physician Part A                            $0.00
line11/col. 3           Home Office Salaries and Wages                             $0.00
line12/col. 3           Home Office Physician Part A                       $3,258,640.00                                                                                                                     $3,258,640.00
line13/col. 3           Wage-Related Cost (Core)                          $39,088,335.00                                                                                              $941,784.00           $40,030,119.00
line 14/col. 3          Wage-Related Cost (Other)                                  $0.00
line 18/col. 3          Physician Part A                                   $1,238,152.00                                                                                             ($875,261.00)             $362,891.00
sub-tot-b (ADD)                                                           $47,312,341.00                $0.00        ($443,573.07)                $0.00             $0.00              $66,523.00           $46,935,290.93
                        Adjusted Salaries                                $205,171,655.00          $751,068.00        ($443,573.07)       ($1,247,748.00)            $0.00              $66,523.00          $204,297,924.93
Total Paid Hours
line1/col. 4            Total Hours                                         7,490,290.83                                                        (591.00)                                                      7,489,699.83

                        Excluded Hours

line 3/col.4            Nonphysician Anesthetist Part B                            0.00
line 4.01/col. 4        Teaching Physician Hours                                   0.00
line5/col. 4            Physician Part B Hours                                51,725.00            (24,012.00)                                                                                                   27,713.00
line6/col. 4            Interns and Residents Hours                           90,707.00                                                                                                                          90,707.00
line 8/col. 4           SNF Hours                                                  0.00
line8.01/col. 4         Excluded Area Hours                                  366,202.00                                                                         (11,752.00)                  0.00               354,450.00
sub-tot-c (LESS)                                                             508,634.00            (24,012.00)               0.00                  0.00         (11,752.00)                  0.00               472,870.00
                        Additional Hours
line9/col. 4            Contract Labor Hours                                  111,875.00                 0.00          (34,778.70)                                    0.00                   0.00                77,096.30
line 10/col. 4          Contract Labor-Physician Part A Hours                       0.00
line11/col. 4           Home Office Salary Hours                                    0.00
line12/col. 4           Home Office Physician Part A                           42,605.00                                                                                                                         42,605.00
sub-tot-d (ADD)                                                               154,480.00                 0.00          (34,778.70)                 0.00               0.00                   0.00               119,701.30
                        Adjusted Hours                                      7,136,136.83            24,012.00          (34,778.70)              (591.00)         11,752.00                   0.00             7,136,531.13
                                                                                 CUMULATIVE EFFECT OF FINDINGS                                                                                            APPENDIX A
                                                                                                                                                                                                            Page 2 of 2

                                                                        Reported Fiscal Year                                                                                                               Adjusted FY 2005 Wage
Unadjusted Wages                                                       (FY) 2005 Wage Data                                                                                                                          Data

                                                                                                                                                                 Excluded Area
                                                                                                 Physician Part A      Contract Labor      Salaries & Hours                         Wage-Related Costs
Via Christi Regional Medical Center - FY 2009 Wage Index                                                                                                             Hours
Work Sheet S - 3, Part III
Overhead (OH) Allocation
line13/col. 3              Total OH Wages                                      $50,694,621.00                                                                                                                     $50,694,621.00
line13/col. 4              Total OH Hours                                        3,384,028.00                                                                                                                       3,384,028.00
                           Total Hours                                           7,490,290.83                  0.00                0.00               (591.00)              0.00                   0.00             7,489,699.83
                           LESS:
                           Nonphysician Anesthetist Part B- Line 3                       0.00

                           Teaching Physician - Line 4.01
                               0.00

                           Physician Part B - Line 5
                               51,725.00            (24,012.00)               0.00                  0.00               0.00                   0.00                27,713.00
                           Interns and Residents - Line 6                           90,707.00                                                                                                                          90,707.00
                           Total OH Hours                                        3,384,028.00                  0.00                0.00                  0.00               0.00                   0.00             3,384,028.00
                           SUBTOTAL ->                                           3,526,460.00            (24,012.00)               0.00                  0.00               0.00                   0.00             3,502,448.00
                           Revised Hours                                         3,963,830.83             24,012.00                0.00               (591.00)              0.00                   0.00             3,987,251.83
                           OH Reduction for Excluded Areas Hours
                           SNF Hours                                                     0.00                                                                                                                               0.00
                           Excluded Area Hours (e.g., home health)                 366,202.00                                                                         (11,752.00)                  0.00               354,450.00
                           SUBTOTAL -->                                            366,202.00                  0.00                0.00                  0.00         (11,752.00)                  0.00               354,450.00




[(SNF+Excluded Area Hours)/Revised Hours]                                             9.239%               -0.056%              0.000%                0.001%            -0.296%                 0.000%                   8.890%
Excluded OH Rate                                                                $4,683,467.18           ($28,200.56)              $0.00              $698.40        ($150,299.85)                 $0.00            $4,506,539.64
 Excluded OH Wages ($OH X Excluded OH Rate)                                        312,636.41             (1,882.48)               0.00                 46.62         (10,033.00)                  0.00               300,825.93
  Excluded OH Hours (OH Hours X Excluded OH Rate)


(OH Hours/(Revised Hours + SNF + Excluded Hours)                                     43.868%               -0.136%              0.000%                 0.003%            0.067%                 0.000%                  43.802%
OH Rate                 Wage-Related Cost (Core)                               $39,088,335.00                 $0.00               $0.00                  $0.00             $0.00            $941,784.00           $40,030,119.00
                        Wage-Related Cost (Other)                                       $0.00                 $0.00               $0.00                  $0.00             $0.00                  $0.00                    $0.00
                        Physician Part A                                        $1,238,152.00                 $0.00               $0.00                  $0.00             $0.00           ($875,261.00)             $362,891.00
                        SUBTOTAL                                               $40,326,487.00                 $0.00               $0.00                  $0.00             $0.00             $66,523.00           $40,393,010.00
                                                                               $17,690,547.71           ($54,895.51)              $0.00             $1,355.44         $26,991.82             $29,182.51           $17,692,966.21
 OH Work Wage-Related Cost                                                      $1,634,356.82           ($14,881.99)              $0.00               $368.96        ($50,035.45)             $2,696.05            $1,572,830.65
                      Adjusted
 Excluded Work Wage-Related CostSalaries                                      $205,171,655.00           $751,068.00        ($443,573.07)       ($1,247,748.00)             $0.00             $66,523.00          $204,297,924.93
                      Less: Excluded Overhead Salaries                          $4,683,467.18           ($28,200.56)              $0.00               $698.40       ($150,299.85)                 $0.00            $4,506,539.64
                                                                                $1,634,356.82           ($14,881.99)              $0.00               $368.96        ($50,035.45)             $2,696.05            $1,572,830.65
REVISED WAGES                                                                 $198,853,831.00           $794,150.55        ($443,573.07)       ($1,248,815.36)       $200,335.30             $63,826.95          $198,218,554.65
                          Excluded Work-Related Cost


Assume 1 - However,
MULTIPLY            Based on Cost
            BY : INFLATION        Report End Date
                              FACTOR                                                  1.00000                                                                                                                            1.00000
INFLATED WAGES (Adjusted Wages Used in Report) -                              $198,853,831.00           $794,150.55        ($443,573.07)       ($1,248,815.36)       $200,335.30             $63,826.95          $198,218,554.65

REVISED HOURS (Adjusted Hours Used in Report) -                                  6,823,500.42             25,894.48          (34,778.70)              (637.62)         21,785.00                   0.00             6,835,705.20

[Adjusted Hours - Excluded OH Hours]
Average Hourly Wage                                                                    $29.14                 $0.01               $0.08                ($0.18)            ($0.06)                 $0.01                    $29.00


                                                                          Total Wage Data
                                                                                                                                                                                                                  Totals
                                                                              Revisions:
                                                                     Inflated Wages                     $794,150.55        ($443,573.07)       ($1,248,815.36)       $200,335.30             $63,826.95             ($634,075.63)
                                                                     Revised Hours                        25,894.48          (34,778.70)              (637.62)         21,785.00                   0.00                12,263.15
APPENDIX B
  Page 1 of 3
APPENDIX B
  Page 2 of 3
APPENDIX B
  Page 3 of 3 

